                                     Closeout for A01050016

          In May 2001, a              alerted a ~0~in                       about a concern
regarding a statement made by a CO- PI^ in the CV of a submitted proposal.4 The Co-PI
states in his CV that he has "published or has in review 26 peer reviewed articles in the
past 5 years." The reviewer stated that he knows for certain that this is not the case.
          We reviewed the published scientific literature via a web-based scientific citation
database, The Web of science5, and information published on a university sponsored
~ e b s i t e We
              . ~ were able to identify 19 published articles, 1 book chapter, 1 paper in1
press, and 1 submitted article. On June 19,2001, we talked to the                 who mide
the claim, to see if he could provide us with more information regarding his allegatiin.
However, the             r had no further information regarding the CV of the Co-PI. Thus,
taking into account the Co-PI'S publication history and lacking further evidence from the
complainant, the Co-PI'S claim appears to be reasonably accurate.
          This inquiry is closed and no further action will be taken.

cc: Investigation, IG




' Footnote redacted.
 Footnote redacted.
 Footnote redacted.
 Footnote redacted.
 http://saratoga.nrl.navy.miVisil.
 Footnote redacted.


                                           Page 1 of I
